        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Audit Report
The Department of Energy's
Opportunity for Energy Savings
Through the Use of Setbacks in its
Facilities




DOE/IG-0817                           July 2009
                               Department of Energy
                                 Washington, DC 20585

                                        July 20, 2009


MEMORANDUM FOR THE SECRETARY



FROM:                     Gregory H. Friedman
                          Inspector General

SUBJECT:                  INFORMATION: Audit Report on "The Department of
                          Energy's Opportunity for Energy Savings Through the Use of
                          Setbacks in its Facilities"

BACKGROUND

During 2008, the Department of Energy expended about $300 million to provide energy
to over 9,000 Federal buildings at its facilities. A significant portion of those costs, up to
40 percent, were expended for heating, ventilation and air conditioning (HVAC).
Because of its size and scope, operating the Department's existing HVAC systems as
efficiently as possible offers the promise of immediate and substantial energy and cost
savings. In addition to the "common sense" reasons for efficient and economic energy
use, Federal agencies are specifically required to conserve energy by reducing heat or
eliminating air conditioning during non-working hours. One of the primary means of
achieving these savings is through the use of "setback" controls, both mechanical and
software, that decrease the temperature difference between the inside of the building and
the outside of the building during non-working hours.

The Department is the Federal agency designated to lead the country to energy efficiency
and it has both an opportunity and responsibility to provide direction for smart, efficient
energy management. However, as we noted in our recent report on Department of
Energy Efforts to Manage Information Technology Resources in an Energy-Efficient and
Environmentally Responsible Manner (OAS-RA-09-03, May 27, 2009), both Federal and
contractor officials had not always taken all necessary steps to advance the Department's
energy leadership role.

Recently, the American Recovery and Reinvestment Act of 2009 (Recovery Act)
reemphasized the importance of reducing the country's dependence on foreign oil and,
more generally, on fossil fuels, and of conserving the Nation's scarce energy resources.
Because of the importance of these objectives, we initiated this audit to determine
whether the Department was taking maximum advantage of setbacks as an energy
savings/management technique.

RESULTS OF AUDIT

Our testing at Office of Science and National Nuclear Security Administration facilities
revealed that the Department either did not use or failed to properly maintain setback
systems and equipment in a number of instances. At just the four sites we visited, the
                                            2

Department had not ensured that setback conservation methods were used for 35 of the
55 (approximately 64 percent) owned or leased buildings included in our review. The
buildings that did not use setbacks capabilities to control energy consumption comprised
over one million square feet of space. Specifically:

   •   Although in place or capable of being deployed, officials did not utilize setbacks
       in 20 separate buildings; and,

   •   Equipment in 15 other buildings had either never been enabled or had deteriorated
       and was no longer functional, thus making setbacks impossible.

Typical of the problems we noted, the Y-12 National Security Complex recently leased
two buildings that were constructed with setback capability. The property manager for
these buildings told us that the setback equipment was not used because the owner of the
properties had not purchased the software necessary to enable the capability. In another
case, we learned that Los Alamos National Laboratory was not using the setback
capability in two buildings because facility operators and tenants had not been trained on
operating the setback control system. Finally, the Oak Ridge National Laboratory lost
the ability to operate the setback equipment in two buildings when the electronic control
system failed in 2008. Laboratory officials told us that they elected not to replace it
because they planned to implement campus-wide energy conservation measures in the
future.

In spite of its energy conservation leadership role, we found that the Department and its
facility contractors did not place adequate emphasis on reducing energy consumption
through the application of setbacks. Of particular significance, we found that the
Department had not always required the operation of setback capabilities in building
lease agreements. This was especially troubling given the expanded use of leased space
to house Departmental operations. Despite discussions with several Federal and
contractor officials, we could not obtain what we considered to be a satisfactory
explanation as to why the Department failed to take advantage of this conservation
practice, one that is generally low cost and has limited, if any, adverse impact on
operations or building occupants. Consistent with the lack of emphasis in this area, we
noted that the Department had not required the four contractors included in our review to
develop training requirements or energy policies and procedures governing the use of
setback capabilities. Energy consumption reduction goals related to setbacks had also not
been established to help incentivize contractor performance in this important area.

With nearly $300 million in annual utility costs, the Department could realize significant
savings by using setbacks in its buildings. We estimate that the Department could save
over $11.5 million in annual utility costs. We developed the estimate based on the
observation that approximately 64 percent of the facilities included in our review had not
used setbacks. We then conservatively applied a 15 percent energy consumption savings
estimate observed by Sandia National Laboratory and savings estimates contained in a
study conducted by Pacific Northwest National Laboratory to the 40 percent of utility
costs generally recognized as resulting from HVAC operation. Such savings could be
                                              3

used to fund high priority programs and install additional energy saving features. The
consumption savings would be, at today's average residential electricity cost, sufficient to
power over 9,800 homes each year.

We recognize that while setbacks can be used in many situations, they are not appropriate
for facilities that are continuously operated or those that house delicate equipment that
depend on constant temperatures. However, during the course of our audit officials at
four of the sites included in our review told us that they recognized the utility of using
setbacks for most facilities. At two sites, implementation efforts began almost
immediately after we briefed officials on our findings. We also noted that Department
Headquarters facilities used setbacks in offices and many common areas.

With over 9,000 buildings in its inventory, the consistent use of setbacks can help the
Department significantly reduce its energy consumption and, as noted above, achieve
substantial cost savings. Actions related to setbacks that officials began after we initiated
our audit are noteworthy and should, if fully implemented, help further reduce energy
consumption. However, additional action at sites across the complex is necessary to
maximize energy efficient operations and to establish the Department as the leader in this
effort in all of the Federal sector. We made several recommendations designed to aid the
Department in its effort to increase operational efficiency, save energy and reduce costs.

This is the third in a recent series of energy conservation-related audits. The first of these
efforts, Management of the Department's Data Centers at Contractor Sites (DOE/IG-
0803, October 2008), found that facility contractors had not always taken advantages of
opportunities to improve the energy and operational efficiency of data centers. During
our second audit in this series, Department of Energy Efforts to Manage Information
Technology Resources in an Energy-Efficient and Environmentally Responsible Manner
(OAS-RA-09-03, May 27, 2009), we found circumstances similar to those we discovered
during this review.

MANAGEMENT COMMENTS

Department management generally agreed with our findings and recommendations.
Management agreed to take needed corrective actions, including emphasizing the
importance of using setbacks as an energy conservation measure to all programs and
sites. In separate comments, the National Nuclear Security Administration indicated that
it would take a series of actions to enforce the use of setbacks. The Office of Science
noted that the Oak Ridge National Laboratory had consistently met its energy
conservation goals and that the Laboratory is implementing a broad system of energy
conservation measures. Management's comments are included in Appendix 3.

Attachment

cc: Deputy Secretary
    Administrator, National Nuclear Security Administration
    Under Secretary of Energy
    Under Secretary for Science
    Chief of Staff
AUDIT REPORT ON THE DEPARTMENT OF ENERGY'S
OPPORTUNITY FOR ENERGY SAVINGS THROUGH THE USE OF
SETBACKS IN ITS FACILITIES

TABLE OF
CONTENTS


     Energy Conservation Through the Use of Setbacks

     Details of Finding……………………………………………………………1

     Recommendations ……………….………………………………………….5

     Comments…………………………………………………………………...6


     Appendices

     1. Objective, Scope, and Methodology……………………………………...7

     2. Prior Audit Reports ……………………………………………………....9

     3. Management Comments …………………………………………………10
ENERGY CONSERVATION THROUGH THE USE OF SETBACKS

Implementation at     Our review revealed that the Department of Energy
Federal and           (Department) had not ensured that energy setback
Contractor Sites      capabilities were fully utilized at its facilities. This despite
                      the requirements established in 41 CFR 102-74.185, which
                      require Federal agencies that occupy government-owned
                      and leased buildings to operate heating, ventilation and air
                      conditioning (HVAC) systems in the most energy efficient
                      and economical manner. Agencies must reduce heating
                      temperatures to no higher than 55 degrees Fahrenheit
                      during non-working hours and eliminate air-conditioning
                      during non-working hours, except as necessary to return
                      temperatures to a suitable level for the beginning of
                      working hours.

                      During our visits to four major Department facilities, we
                      reviewed a sample of 55 separate buildings and determined
                      that they were either now or had originally been capable of
                      using setbacks to conserve energy. Building managers told
                      us that 40 of the 55 buildings we evaluated had functioning
                      systems that could have permitted the use of setbacks.
                      These same officials indicated, however, that they had only
                      adopted programs to take advantage of the savings
                      available through the use of setbacks for half of those 40
                      buildings. The remaining 15 buildings had originally had
                      the capability to utilize setbacks, but had subsequently lost
                      that functionality because they had not been adequately
                      maintained. Accordingly, 35 of the 55 (approximately 64
                      percent) buildings included in our review were either not
                      using or had lost their setback capabilities. The following
                      examples discuss buildings where setback capabilities were
                      not being used to control energy consumption to heat and
                      cool over one million square feet of space.

                          National Nuclear Security Administration Facilities

                      Data provided by contractor officials and our testing
                      revealed that the Y-12 National Security Complex (Y-12)
                      had not taken action to improve energy efficiency through
                      the use of setbacks. As part of a modernization effort,
                      Y-12 recently occupied the Jack Case Center and New
                      Hope Center under a lease arrangement. The lessor of
                      these facilities provides Y-12 with almost 550,000 square
                      feet of administrative and public space. The cost of the
                      utilities for these two facilities is reimbursed by the
                      Department through a portion of its lease payments.



________________________________________________________________
Page 1                                            Details of Finding
                      Although both facilities were built with HVAC systems
                      capable of accommodating setbacks, the property manager
                      reported that setbacks were not being used.

                      We also identified a number of other facilities where
                      conservation efforts were not complete. Contractor
                      officials at Y-12 told us that there were other facilities at
                      the site where setbacks were not being used even though
                      the HVAC systems had the requisite capability. As a result
                      of our audit, officials told us that they planned to begin
                      implementation of setbacks in four buildings and pursue
                      setbacks in another. Additionally, we identified seven
                      other buildings owned by the Department at Y-12 that had
                      been capable of using setbacks but had lost this
                      functionality. Two large buildings, for example, had been
                      constructed with the ability to use a setback mode. Over
                      the years, however, the mechanical systems had
                      deteriorated and were not repaired. As a result, electronic
                      setback controls were no longer functional.

                      At the Los Alamos National Laboratory, two facilities we
                      visited had setback capabilities but they had not been
                      activated. Building managers for two major facilities at the
                      site, the National Security Sciences Building and the
                      Nonproliferation and International Security Center, had not
                      taken action to ensure that setbacks were used as required.
                      The potential energy savings for these two buildings could
                      be significant given that they comprise over 450,000 square
                      feet. According to building managers, the setback
                      capabilities had not been used because facility operators
                      and tenants had not been trained on the use of setbacks.

                                    Office of Science Laboratories

                      Similar to the national security sites, we found that there
                      were opportunities for energy savings through the use of
                      setbacks at the Oak Ridge National Laboratory (ORNL).
                      The Multipurpose Research Facility and the Research
                      Office Building, for example, were not using setbacks. The
                      offices and laboratories within these facilities, comprising
                      about 286,000 square feet, were built with HVAC setback
                      capability. Facility engineers, for example, reported that
                      setbacks were initially used at the Research Office
                      Building; however, the use was discontinued when it was
                      determined that setbacks adversely affected the pressure in
                      the building. Building management reported that doors
                      became difficult to open in the morning when the setback

________________________________________________________________
Page 2                                            Details of Finding
                      capability was used. ORNL management officials told us
                      that based on our audit they had worked on options to
                      address the issues associated with maintaining proper
                      pressure in the buildings that would permit the use of
                      setbacks to be resumed.

                      Certain systems at ORNL had deteriorated and were no
                      longer capable of providing setbacks. For example, we
                      identified eight facilities that previously were capable of
                      using setbacks, but could no longer operate in this mode
                      due to equipment deterioration. Until 2008, buildings 4501
                      and 4505, for example, used a Direct Digital Control
                      system that was capable of regulating temperatures during
                      non-working hours. Since the system stopped working in
                      2008, the buildings are no longer capable of using setbacks
                      to control temperatures during non-working hours. ORNL
                      is in the process of executing an Energy Savings
                      Performance Contract that it hopes will improve the use of
                      setbacks in its facilities.

                      At the Department's Pacific Northwest National Laboratory
                      (PNNL), four leased facilities were not, at the time of our
                      site visit, operating in setback mode. These facilities
                      account for about 145,000 square feet of office space.
                      PNNL officials told us that, as a result of our audit, they
                      had identified setback capabilities at these facilities and had
                      begun working with the property owner to implement these
                      energy saving techniques. After completion of our audit
                      field work, management informed us that nine of ten PNNL
                      leased buildings had begun to use setback capabilities (the
                      one building not using setbacks did not have the capability
                      to do so).

Setback               In our judgment, the Department and its facility management
Implementation        and operating contractors need to place greater emphasis on
Issues                reducing energy consumption through the application of
                      setbacks. Although we found that facility contracts for the
                      sites we visited had formal provisions which required the
                      implementation of setbacks, the actual execution was
                      spotty, suffering from a lack of specific policies or
                      procedures establishing a regime using thermostat setbacks
                      as an effective energy conservation tool. We noted, as
                      well, that the Department had not required the contractors
                      included in our review to maintain HVAC systems in a
                      condition to fully utilize setbacks. Finally, we found that
                      specific energy consumption reduction goals related to


________________________________________________________________
Page 3                                            Details of Finding
                      setbacks had not been established to incentivize contractor
                      performance in this area. Due to the recent emphasis on
                      leased space for Federal operations, we evaluated the
                      inclusion of setback capabilities in lease agreements. We
                      found that this was not done in a number of such
                      agreements entered into by the National Nuclear Security
                      Administration (NNSA) and the Office of Science. For
                      example, at Y-12, certain lease agreements did not include
                      the use of setbacks even though the Department paid the
                      utility costs. As a result of our audit, officials at Y-12
                      informed us that they are working with the property
                      manager to enable setback capability. The lease
                      agreements at PNNL also did not require use of setbacks.
                      To its credit, however, PNNL incorporated setback
                      requirements into the service agreements for the Biological
                      Sciences Facility and the Computational Science Facility,
                      two new facilities under construction.

                      At selected sites, we found that systems capable of using
                      setbacks were not maintained. Several buildings at Y-12
                      had not been maintained at the level required to support
                      setback capability. Buildings 9113 and 9119, for example,
                      were no longer capable of setback due to the condition of
                      the mechanical equipment. Our findings were consistent
                      with remarks in an Energy Savings Performance Contract
                      proposal in which a bidder noted that most of the heating,
                      ventilation and cooling control systems at these two
                      buildings were inoperable. The majority of the fan controls
                      in the buildings had failed, thereby preventing building
                      controls systems from operating efficiently.

                      Despite a number of interviews and significant document
                      research at all four sites, we could find no plausible reason
                      for the lack of interest in setbacks. Some officials
                      suggested that there were funding implications which made
                      implementation of setbacks problematic. A few officials
                      suggested that it was logistically difficult to implement a
                      setback program in a building where sensitive equipment is
                      working on a 24-hour continuing basis and/or the work
                      force maintains irregular hours. Others told us that the
                      setback issue was simply not a priority given all of the
                      other operational challenges.

                      We recognize all of the challenges and other issues
                      associated with an aggressive setback program.
                      Nonetheless, we concluded that the importance of energy
                      efficiency and conservation in the Department setting is so

________________________________________________________________
Page 4                                            Details of Finding
                     important that these challenges can be overcome and that
                     the reward, in terms of energy savings, will be well worth
                     the cost.

Energy Savings       With nearly $300 million spent on annual utility costs, the
                     Department could save over $11.5 million in annual utility
                     costs by aggressively using setbacks. We developed the
                     estimate based on the observation that approximately 64
                     percent of the facilities included in our review had not used
                     setbacks, and by conservatively applying a 15 percent
                     energy consumption savings estimate observed by Sandia
                     National Laboratory (Sandia) and a study conducted by
                     PNNL to the 40 percent of utility costs generally
                     recognized as resulting from HVAC operation. The
                     consumption savings, at today's average residential
                     electricity cost, would be sufficient to power over 9,800
                     homes per year. In addition to energy savings, the PNNL
                     study concluded that the use of setbacks reduces
                     unnecessary wear and tear on equipment and associated
                     maintenance costs. Significant energy savings can be
                     achieved if setbacks are incorporated into building
                     operations. Sandia, through a recent building upgrade
                     involving replacement of the operational control system
                     and installation of equipment to regulate an air supply fan,
                     reported savings ranging from 8,000 to 14,000 kWh per
                     month (18 to 40 percent).

                     It was quite clear to us that the Department would have
                     been better served if there had been a more consistent
                     commitment to temperature setbacks throughout the
                     complex as a means of conserving energy and reducing
                     operating costs.

RECOMMENDATIONS      We recommend that the Under Secretary for Science, and
                     the Under Secretary for Nuclear Security, require Federal
                     Site Managers to:

                         1. Begin using setbacks at each of the Department's
                            owned or leased facilities, to the maximum extent
                            practicable;

                         2. Ensure site contractors develop and implement
                            policies and procedures requiring that setbacks be
                            used at all Departmental facilities, as appropriate;

                         3. Require future lease agreements to incorporate
                            setback clauses;

________________________________________________________________
Page 5                                          Recommendations
                        4. Train building operations personnel and occupants
                           on the use and benefits of setbacks; and,

                        5. Ensure that required maintenance is performed on
                           HVAC systems capable of setbacks.

                     We also recommend that the Under Secretary of Energy
                     reemphasize the importance of using setbacks as an energy
                     saving and conservation technique to all of the
                     Department's programs and sites.

MANAGEMENT           Department management generally agreed with our
REACTION             finding and recommendations. Management agreed to
                     take needed corrective actions, including emphasizing the
                     importance of using setbacks as an energy conservation
                     measure to its programs and sites.

                     In separate comments, the NNSA indicated that it would
                     take a series of actions to enforce the use of setbacks. In
                     particular, NNSA indicated that it would take actions to
                     validate the use of setbacks; require contractors to develop
                     and implement policies and procedures requiring the use of
                     setbacks; incorporate setback clauses in future lease
                     agreements; perform energy awareness training; and
                     continue to consider HVAC system maintenance as part of
                     its overall priority system.

                     The Office of Science noted that the ORNL had
                     consistently met its energy conservation goals which are
                     much broader than the use of setbacks. Science officials
                     also noted that the Laboratory is implementing a broad
                     system of energy conservation measures through an Energy
                     Savings Performance Contract that will achieve energy
                     consumption reductions exceeding those available from the
                     use of setbacks alone.

AUDIT RESPONSE       Management's comments are responsive to our finding and
                     recommendations. We are encouraged by the Office of
                     Science's plans to implement an Energy Savings
                     Performance Contract at the ORNL. The inclusion of
                     energy conservation measures such as setbacks in such
                     contract should, if properly implemented, help reduce
                     energy use and costs at the Laboratory.




________________________________________________________________
Page 6                                                 Comments
Appendix 1

OBJECTIVE             The objective of the audit was to determine whether the
                      Department of Energy (Department) was taking maximum
                      advantage of setbacks as an energy savings/management
                      technique.

SCOPE                 The audit was performed between July 2008 and May 2009.
                      We performed our work at the Department of Energy's
                      Headquarters in Washington, D.C.; the Y-12 National Security
                      Complex located in Oak Ridge, Tennessee; Oak Ridge
                      National Laboratory located in Oak Ridge, Tennessee; Los
                      Alamos National Laboratory located in Los Alamos, New
                      Mexico; and, the Pacific Northwest National Laboratory
                      located in Richland, Washington. The scope of the audit
                      included buildings that used systems capable of operating in
                      setback mode.

METHODOLOGY           To accomplish our objective, we:

                         •   Reviewed laws and regulations applicable to
                             requirements for operating buildings in a cost effective
                             and energy efficient manner;

                         •   Reviewed 55 buildings and interviewed building
                             operations personnel at four sites;

                         •   Analyzed Department Orders, Management and
                             Operating Contracts, and leasing agreements for
                             provisions requiring buildings to be operated in a cost
                             effective and energy efficient manner;

                         •   Interviewed officials from the Department's Federal
                             Energy Management Program;

                         •   Reviewed information included in building automation
                             systems;

                         •   Interviewed representatives from the General Services
                             Administration and personnel responsible for operating
                             the Forrestal and Germantown facilities; and,

                         •   Observed the building automation system for the
                             Forrestal and Germantown facilities.

                      We conducted this performance audit in accordance with
                      generally accepted Government auditing standards. Those
                      standards require that we plan and perform the audit to obtain
                      sufficient, appropriate evidence to provide a reasonable basis
________________________________________________________________
Page 7                             Objective, Scope, and Methodology
Appendix 1

                      for our finding and conclusion based on our audit objective.
                      We believe that the evidence obtained provides a reasonable
                      basis for our finding and conclusion based on our audit
                      objective. The audit included tests of controls and compliance
                      with laws and regulations related to the Department's use of
                      setbacks as an energy savings technique. Because our review
                      was limited, it would not necessarily have disclosed all internal
                      control deficiencies that may have existed at the time of our
                      audit. Also, we examined the establishment of performance
                      measures in accordance with the Government Performance and
                      Results Act of 1993, as it related to the audit objective. The
                      Department sites included in our audit had not established
                      specific performance measures regarding the use of setbacks in
                      its buildings. We did not rely on computer processed data to
                      satisfy our audit objective.

                      Management waived an exit conference.




________________________________________________________________
Page 8                             Objective, Scope, and Methodology
Appendix 2

                                PRIOR AUDIT REPORTS


               PRIOR OFFICE OF INSPECTOR GENERAL REPORTS


The Office of Inspector General (OIG) has previously reported on energy conservation at the
Department of Energy (Department).

   •   Management of the Department's Data Centers at Contractor Sites (DOE/IG-0803,
       October 2008). The audit found that facility contractors had not always taken
       advantage of opportunities to improve the energy and operational efficiency of data
       centers. In particular, as many as 140 data centers were found at the six sites
       reviewed that duplicated common services such as e-mail, data storage, and libraries.
       Furthermore, four of the six sites made only limited use of more efficient hardware
       technologies that conserve energy and reduce operational costs. The OIG estimated
       that $2.3 million per year for these six sites could be saved through the use of more
       efficient hardware technologies allowing for the consolidation of servers and be more
       energy-efficient.

   • Department of Energy Efforts to Manage Information Technology Resources in an
     Energy-Efficient and Environmentally Responsible Manner (OAS-RA-09-03,
     May 27, 2009). An audit was conducted to determine if the Department managed
     information technology resources in an energy-efficient and environmentally
     responsible manner. The audit found that the Department did not take advantage of
     existing, low or no cost built-in energy management features on a significant
     percentage of its computers and peripherals.




______________________________________________________________      __
Page 9                                              Prior Audit Reports
Appendix 3




________________________________________________________________
Page 10                                      Management Comments
Appendix 3 (continued)




________________________________________________________________
Page 11                                      Management Comments
 Appendix 3 (continued)




_________________________________________________________________
 Page 12                                          Management Comments
 Appendix 3 (continued)




_________________________________________________________________
 Page 13                                          Management Comments
                                                          IG Report No. DOE/IG-0817__

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations



If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
